App 1
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
CHRIS JAYE,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2019-1458
Appeal from the United States Court of Federal Claiins
in No. l:18-cv-01200-LAS, Senior Judge Loren A. Smith.
Decided: August 6, 2019
CHRIS JAYE, Clinton, NJ, pro se.
RUSSELL JAMES UPTON, Commerda 1 Litigation
Branch, Civil Division, United States Department
of Justice, Washington, DC, for defendantappellee. Also represented by JOSEPH H. HUNT,
STEVEN JOHN GILLINGHAM, ROBERT EDWARD
KIRSCHMAN, JR.
Before LOURIE, PLAGER, and O’MALLEY, Circuit
Judges. PER CURIAM.

App 6
reasons explained below, the Court of Federal Claims
correctly concluded that it lacked jurisdiction to consider
Jaye's claims.
First, Jaye has not pled the elements of
a valid contract-* either express or implied-between
herself and the United States.yLike an express contract,
an implied-in-fact contract requires: "(1)
mutuality of intent to contract] (2) consideration; and,
(3) lack of ambiguity in offer and acceptance." City
of Cincinnati v. United States, 153 F.3d 1375, 1377
(Fed. Cir. 1998). "When the United States is a party,
a fourth requirement is added: The government
representative whose conduct is relied upon must have
actual authority to bind the government in contract." Id.
In her complaint, Jaye alleges that she "has an implied
contract with the United States upon paying court
fees to access the court." Appellee’s App. 2.
Jaye argues that the United States breached that
contract by ”fail[ing] to provide competent judges" and
requests that certain filing fees be
returned to her. Id. at 22, 33 ("Plaintiff requests
the return of all court fees paid to the United States
as required by law with the exception of the fee paid
for the case of 14-07471."). But the
mere filing of a complaint and payment of a filing fee
does not create a contract between the plain­
tiff and the United States. See Garrett v. United

App 7

States, 78 Fed. CL 668, 671 (2007) (finding no
authority supporting plaintiffs proposition that filing a
complaint gives rise to a contract with the United
States); Stamps v. United States, 73 Fed. CL 603, 610
(2006) (finding that the court lacked jurisdiction to
hear plaintiffs claim alleging breach of an implied-infact contract stemming from the district court judge's
acceptance of the case in forma pauperis). Because
Jaye has not alleged the elements of a contract with the
United States, her claim is not within the jurisdiction of
the Court of Federal Claims.
As to Jaye's allegations of
constitutional violations, it is well established that not
every claim involving, or invoking,
the Constitution necessarily
confers jurisdiction upon the Court of Federal
Claims. James v. Caldera, 159 F.3d 573, 580 (Fed.
Cir. 1998) ("[A] Tucker Act plaintiff must assert a claim
under a separate money-mandating constitutional
provision, statute, or regulation, the violation of
which supports a claim for damages against the
United States."). Although the grounds for Jaye's
constitutional challenges are not entirely clear, her
complaint alleges violation of the separation of powers
doctrine. Appellee's App. 23. The separation of
powers doctrine does not "mandate payment of money
by the government" and thus cannot confer jurisdiction

App8
upon the Court of Federal Claims. LeBlanc, 50 F.3d at
1028. To the extent Jaye is claiming violation of her due
process rights, the Due Process clause of the Fifth
Amendment is not a sufficient basis for jurisdiction
because it is not money-mandating. Id.
Next, Jaye asserts that the "United States acted a
part in an unlawful taking scheme perpetrated by the
State of New Jersey." Appellee's App. 5. The Court of
Federal Claims found that, although Jaye claims that
"takings" were committed against her, her complaint
"lacks any factual basis for a taking." Id. at 115. We
agree.
As the Court of Federal Claims explained,
Jaye's takings allegations all stem from what
she believes are "void judgments made by state
courts." Id. at 120. The Court of Federal Claims has no
jurisdiction to review state court judgments. Potter v.
United States, 108 Fed. CL 544, 548 (2013)
("This Court, like all lower federal courts, lacks au­
thority to review a state court's judgments/nor does it
have the authority to remedy in juries that are caused
by a state court’s order."). And, although Jaye's caption
identifies the United States as the defendant in this
suit, many of her "takings-rela ted" factual allegations
are directed at New Jersey state officials and "state
actors." Appellee's App. 6. It is well established that the
Court of Federal Claims only has jurisdiction to hear

App 9

claims against the United States. See United States
v. Sherwood, 312 U.S. 584, 588 (1941)
(suits against parties other than the United States
are "beyond the juris diction " of the Claims Court).
To the extent Jaye's complaint seeks relief against
defendants other than the United States,
including state officials, state agencies, and
other individuals, the Court of Federal Claims lacks
jurisdiction over those claims. Smith v.
United States, 99 Fed. CL 581,
583 (2011) ("(T]he Court of Federal Claims does not
have jurisdiction to hear claims against states, lo­
calities, state and local government entities, or state and
local government officials and employees.").
Finally, in her prayer for relief, Jaye asks the Court of
Federal Claims to review several cases she filed
in the United States District Court for New Jersey, all of
which were dismissed. But "the Court of Federal Claims
does not have jurisdiction to review the decisions
of district courts." Joshua v. United States, 17 F.3d 378,
380 (Fed. Cir. 1994). As such, the Court of
Federal Claims cannot review any of the district court's
decisions Jaye identifies in her complaint.1
CONCLUSION
We have considered Jaye's remaining arguments and
conclude that they are without merit. Because the Court

App 10

'

of Federal Claims lacks
jurisdiction over the asserted claims, we affirm.2
AFFIRMED
i

Jaye filed a "Motion to Rely on Original Record and
Expand Record to Support Relief Denied." Motion, Jaye
v. United States, No. 19-1458 (Fed.Cir. June 12, 2019),
ECF No. 48. Therein, she
argues that "the judges of the US District Court of New
Jersey, US Court of Appeals, Third Circuit
the Judicial Council of the Third Circuit had the power
and duty to perform to uphold my rights. They did not. They
are Government employees. They are directly
involved in the taking, deprivation and seizure of my prop­
erty." Jd. at 1. To the extent Jaye seeks relief against any
federal judges individually, the Court of Federal Claims
does not have jurisdiction to address those
claims. See Brown v. United States, 105 F.3d 621,
624 (Fed. Cir. 1997) ("The Tucker Act grants the Court of
Federal Claims jurisdiction over suits against the United
States, not against individual federal officials.").
Jaye’s motion is denied.
2Jaye also fded a Motion for Court Copies, arguing that
she has not received certain documents and requesting that
the court send her copies via email. Motion, Jaye
v. United States, No. 19-1458 (Fed. Cir. June 12, 2019),
ECF No. 46. That motion is denied. All documents filed in
this appeal are available electronically through the Public
Access to Court Electronic Records (PACER) system.

J

Appll

United States Court of Appeals
for the Federal Circuit
CHRIS JAYE,
Plaintiff - Appellant
v.
UNITED STATES,
Defendant - Appellee
2019-1458
Appeal from the United States Court
of Federal Claims in No. 1:18-cv-01200 -LAS
Senior Judge Loren A. Smith.
JUDGMENT

THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
AFFIRMED

ENTERED BY ORDER OF THE COURT
August 6. 2019

Isl Peter R. Marksteiner
Peter R.Marksteiner
Clerk of Court

App 12
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
CHRIS JAYE,
Plaintiff - Appellant
v.
UNITED STATES,
Defendant - Appellee

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, PLAGER*,
LOURIE, DYK, MOORE, O'MALLEY,
REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
* Circuit Judge Plager participated only in the decision on
the petition for panel rehearing.
ORDER
Appellant Chris Jaye filed a combined
petition for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en

App 13
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing eii banc is denied.
The mandate of the court will issue on October 3, 2019.
FOR THE COURT
September 26. 2019
Isi Peter R.Marksteiner
Peter R. Marksteiner
Clerk of Court

App 14
United States Court of Federal Claims
No. 18-1200L
Filed August 24, 2018
Chris Jaye,
Plaintiff
v.
The United States,
Defendant
ORDER
On August 8, 2018, plaintiff Chris Jaye,
proceeding pro se, filed a complaint with this Court. In
her complaint, plaintiff appears to seek review of alleged
wrongs by state actors perpetrating a plethora of acts
against her. Plaintiffs complaint ask the Court of
Federal Claims “to make void all ruling involding all
taking which hve been given benefit by the United
States,” among other requests pertaining to her
allegations including asking this Court to “order
sanctions against counsel.” Complaint (hereinafter
“Compl”) at 30-33.
This Court’s authority to hear cases is primarily
set forth by the Tucker Act, which grants the Court of
Federal Claims subject-matter jurisdiction over claims

App 15
brought against the United States that are grounded on
a money-mandating source of law and do not sound in
tort. 28 USC §1491 (a)(1). Rule 12(h)(3) of the Rules of
Court of the Federal Claims (“RCFC”) states that “[i]f
the court determines at any time that it lacks subjectmatter jurisdiction, the court must dismiss the action.”
RCFC 12(h)(3). In the present case, the plaintiff alleges
many different violations against the United States.
While plaintiff claims “takings” were committed against
her by federal officers, plaintiffs complaint lacks any
factual basis for a taking. Additionally, plaintiff states
that this action is “NOT AN APPEAL.” Compl. At 4.
However, plaintiffs argument depends on her assertion
that federal courts previously upheld allegedly void
judgment made by state courts. See generally, Compl.
Therefore, plaintiffs complaint is, in essence, an appeal.
It is well settled that this Court has no jurisdiction to
entertain appeals of state court judgments. Potter v.
United States, 108 Fed. CL 544, 548 (2013) (“This Court,
like ah lower federal courts. Lacks authority to review a
state court’s judgments, nor does it have the authority to
remey injuries that are caused by state court’s order.”)
Upon sua sponte review, this Court finds that Plaintiffs
allegations do not give rise to any cause of action which
this Court has subject-matter jurisdiction. This Court
has no authority to decide plaintiff s case, and therefore
must dismiss the complaint pursuit to RCFC 12(h)(3).

r

!

App 16

Plaintiff complaint is DISMISSED, sua sponte,
pursuant to RCFC 12(h)(3). The Clerk of the Court is
hereby directed to take the necessary steps to dismiss
this matter.
IT IS SO ORDERED,
/s/ Loren A. Smith
Loren A. Smith
Senior Judge

App 17
United States Court of Federal Claims
No. 18-1200L
Filed December 21, 2018
Chris Jaye,
Plaintiff
v.
The United States,
Defendant
SMITH, Senior Judge
ORDER .
On August 8, 2018, plaintiff Chris Jaye,
proceeding pro se, filed her Complaint with this Court.
On August 24, 2018, the Court dismissed plaintiff’s
Complaint sua sponte and directed the Clerk of Court to
enter judgment. Judgment was entering in this case on
August 28, 2018. Plaintiff states that she did not
receive notice of the Court’s Opinion and Order filed on
August 254, 2018, because plaintiffs incorrect address
was given to the Clerk’s Office. On October 11, 2018,
plaintiff mailed a Document entitled “Lack of Notice of
Appearance from the United States” Later, on
November 20, 2018, plaintiff mailed to this Court
documents entitled “Notice Motion for Relief from Sua
Sponte Dismissal and Order Giving Plaintiff Permission
to File by ECF,” “Motion to Supplement the Original
Complaint,” and “Certification of Chris Ann Jaye in
Support of Her Motion/Application for a Writ.” Plaintiff

App 20
may be challenged at any time by the parties or by the
court sua sponte.” Folden v. United States, 379 F3d
1344, 1354. On many occasions, this Court has used its
power to sua sponte dismiss a claim based on lack of
jurisdiction. See, e.g. Smith v. United States, 99 Fed.
CL 581 (2011) (dismissing plaintiffs Complaint for lack
of subject-matter jurisdiction, ‘the allegations stated in
the complaint are taken as true and jurisdiction is
decided on the face of the pleadings.’” Folden, 379 F. 3d
at 1354. (quoting Shearin v. United States, 992 D2
1195-96 (Fed. Cir. 1993)). For the reason reiterated
below, the Court lacks subject-matter jurisdiction and,
therefore, plaintiff has no meritorious claims.
In her Complaint, plaintiff alleges “Plaintiff and
the United States ha[ve] an implied contract.” See
Complaint (hereinafter “Compl”) at 12. Plaintiff states
that because she paid the filing fee in previous federal
court cases, there was an implied .contact established
between her and the United States. See Compl. At 19.
The Court of Federal Claims retains jurisdiction in
claims against the United States when a “complaint
present a non-frivolous allegation of the existence of an
implied-in-fact contract.” Hanlin u. United States, 214 F
3d, 1319, 1321 (Fed. Cir. 2000). However, plaintiffs
claim for implied contract is frivolous as it “involves a
legal [conclusion] not arguable on the merits.” Galloway
Farms, Inc. v. United States, 834, F 2d 998, 1000 (Fed.
Cir. 1987). Additionally, plaintiffs entire allegation
based on takings jurisdiction cites an assertion that
federal courts previously upheld allegedly void
judgments made by state courts. See generally Compl.
As reiterated, plaintiffs Complaint is an appeal of state

1
.*

**
/
/
/

App 21
court judgments. It is well settled that this Court has
no jurisdiction to entertain appeals of state court
judgments. Potter v. United States, 108 Fed. CL 544,
548 (2013) (“This Court, like all lower federal courts.
Lacks authority to review a state court's judgments, nor
does it have the authority to remey injuries that are
caused by state court’s order.”) Accordingly, plaintiff
has no meritorious claim or defense, and the Court finds
that the plaintiffs failure to file a meritorious claim
warrants the denial of plaintiffs Motion to Vacate
pursuant to RCFC 60(b)(1).
RCPC 60(b)(3) allows the Court to vacate a final
judgment for “fraud (whether previously called intrinsic
or extrinsic), misrepresentation, or misconduct by an
opposing party.” “Unsupported allegations and
innuendo are insufficient to warrant relief.” Wagstaff v.
United States, 118 Fed. CL 172, 176 (2014): Madison
Servs. Inc. v. United States, 94 Fed. CL, 501, 507 (2010).
(“Because plaintiff submits as evidence unsubstantiated
innuendo and uncorroborated inferences, evidence that
cannot meet a “clear and convincing” standard, the court
must deny plaintiffs request for relief.”) Plaintiff has
offered no clear and convincing evidence of fraud, and
therefore, does not meet the standard for RCFC 60(b)(3).
Finally, RCFC 60(b)(5) and RCFC 60 (b)(6) are
inapplicable to this case. RCFC 60(b)(5) “applies to
judgments that are executory” in nature, or those that
entail the Curt supervising ‘changing conduct or
conditions.’” Kenzora v. Sec’y of Health & Human Servs,
126 Fed CL (Fed. CL. June 3, 2008)). An example, of
this judgment is an injunction. There was no judgement
of this nature within the Court’s Opinion and Order.

1

/

i

r
K^-

App 22
RCFC 60(b)(6) allows relief from a final judgment for
“any other reasons that justifies relief/' “[Rjelief from
judgment under RCFC 60(b)(6) may be granted “only for
exceptional or extraordinary circumstances.” Kenzora,
126, Fed. CL. At 600. Plaintiff has not shown
exceptional circumstances that would warrant relief
under RCFC 60 <b)(6).
As stated in this Order, and in the Court’s
original August 24, 2018 Opinion and Order, the Court
is constrained by the law and there is nothing the Court
can do. The Clerk of the Court is hereby directed to file
plaintiffs correspondence as plaintiffs Motion to Vacate.
Moreover, plaintiffs Motion to Vacate is DENIED.
Additionally, it is ORDERED that the Clerk is to accept
no farther filings or complaints related to the claims in
the case at bar from Chris Ann Jaye without an order
granting leaver to file such filing from the Chief Judge
of the United States Court of Federal Claims. In
seeking leave to file any future documents, Ms. Jaye
must explain how her submission raises new matters
properly before this court. See RCFC ll(b)-(c) (barring
the filing of unwanted or frivolous claims that have no
evidentiary support.)
IT IS SO ORDERED.
/s/ Loren A. Smith
Loren A. Smith
Senior Judge

lb

i

